<html>
<title> - GREEN CITIES: MAYORAL INITIATIVES TO REDUCE GLOBAL WARMING POLLUTION</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Publishing Office]


 
  GREEN CITIES: MAYORAL INITIATIVES TO REDUCE GLOBAL WARMING POLLUTION

=======================================================================

                                HEARING

                               before the
                          SELECT COMMITTEE ON
                          ENERGY INDEPENDENCE
                           AND GLOBAL WARMING
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                             JUNE 19, 2007

                               __________

                            Serial No. 110-8


             Printed for the use of the Select Committee on
                 Energy Independence and Global Warming

                        globalwarming.house.gov



                  U.S. GOVERNMENT PRINTING OFFICE
58-083                    WASHINGTON : 2010
-----------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001

                SELECT COMMITTEE ON ENERGY INDEPENDENCE
                           AND GLOBAL WARMING

               EDWARD J. MARKEY, Massachusetts, Chairman
EARL BLUMENAUER, Oregon              F. JAMES SENSENBRENNER, Jr., 
JAY INSLEE, Washington                   Wisconsin, Ranking Member
JOHN B. LARSON, Connecticut          JOHN B. SHADEGG, Arizona
HILDA L. SOLIS, California           GREG WALDEN, Oregon
STEPHANIE HERSETH SANDLIN,           CANDICE S. MILLER, Michigan
  South Dakota                       JOHN SULLIVAN, Oklahoma
EMANUEL CLEAVER, Missouri            MARSHA BLACKBURN, Tennessee
JOHN J. HALL, New York
JERRY McNERNEY, California
                                 ------                                

                           Professional Staff

                     David Moulton, Staff Director
                       Aliya Brodsky, Chief Clerk
                 Thomas Weimer, Minority Staff Director


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hon. Edward J. Markey, a Representative in Congress from the 
  Commonwealth of Massachusetts, opening statement...............     1
    Prepared statement...........................................     3
Hon. F. James Sensenbrenner, Jr., a Representative in Congress 
  from the State of Wisconsin, opening statement.................     5
Hon. Earl Blumenauer, a Representative in Congress from the State 
  of Oregon, opening statement...................................     6
Hon. Emanuel Cleaver II, a Representative in Congress from the 
  State of Missouri,.............................................     7
    Prepared statement...........................................     9
Hon. Jerry McNerney, a Representative in Congress from the State 
  of California, opening statement...............................     8
Hon. Stephanie Herseth Sandlin, a Representative in Congress from 
  the State of South Dakota, opening statement...................     8

                               Witnesses

Ms. Pegeen Hanrahan, Mayor, Gainesville..........................    10
    Prepared Statement...........................................    13
    Answers to submitted questions...............................    56
Mr. Tom Potter, Mayor, Portland, Oregon..........................    19
    Prepared Statement...........................................    22
    Answers to submitted questions...............................    65
Mr. Richard M. Daley, Mayor, Chicago, Illinois...................    27
    Prepared Statement...........................................    30


 HEARING ON GREEN CITIES: MAYORAL INITIATIVES TO REDUCE GLOBAL WARMING 
                               POLLUTION

                              ----------                              


                         TUESDAY, JUNE 19, 2007

                  House of Representatives,
          Select Committee on Energy Independence  
                                and Global Warming,
                                                    Washington, DC.
    The Committee met, pursuant to call, at 2:00 p.m., in Room 
2247 Rayburn House Office Building, Hon. Edward J. Markey, Jr. 
[chairman of the Committee] presiding.
    Present: Representatives Markey, Sensenbrenner, Blumenauer, 
Cleaver, Miller, Hall, Solis, Inslee, McNerney, and Herseth 
Sandlin.
    The Chairman. Good morning. Good afternoon. Welcome. As Tip 
O'Neill used to say, all politics is local, although he 
probably picked that up from Mayor Daley's father. Today we 
will hear from three of the nation's greenest mayors about 
local solutions and the role cities can play in reducing the 
nation's oil imports and global warming pollution.
    Cities are both a cause and a solution to global warming. 
Worldwide cities comprise two percent of land mass but account 
for 78 percent of all greenhouse gas emissions. As city 
populations continue to increase, so will emissions.
    While two-thirds of urban residents currently live in 
cities of less than a million people, mega cities with a 
population of more than ten million are increasing. In 1975, 
there were five. By 1995, there were 15. And by 2015, there are 
expected to be 26 of those cities worldwide.
    While those numbers indicate an increasing responsibility 
for global warming pollution, cities are taking bold measures 
to reverse policies and actions that contribute to global 
warming.
    Though President Bush rejected the Kyoto treaty and the 
United States' requirement to reduce seven percent greenhouse 
gas emissions from 1990 levels by 2012, 529 mayors have pledged 
to do so.
    As Congress debates auto efficiency standards, cities are 
already converting transit and municipal fleets to use hybrid 
energy, natural gas, or biodiesel fuel.
    Two weeks ago, the Administrator of the Environmental 
Protection Agency, our nation's chief environmental minister, 
refused to concede before this Committee that carbon dioxide is 
a danger to the public health.
    Meanwhile, cities have been guided by science. For example, 
a 2004 Harvard Medical School study has linked climate change 
to the childhood asthma epidemic among inner city youth.
    As a result of this and other factors, cities are already 
promoting transit-oriented development, planning to reduce 
sprawl, and supporting mass transit and bicycle paths to reduce 
global warming pollution. These bold actions have occurred 
because leaders and residents of these cities realize the 
importance of these actions.
    Furthermore, many U.S. mayors are not content to effectuate 
change in their cities alone. They are partnering with national 
and international organizations to discuss the best practices 
that are available.
    The three witnesses before us today are all signatories to 
the U.S. Conference of Mayors' Council on Climate Protection. 
The Council on Climate Protection providers mayors the tools 
they need to carry out their mission to meet or beat the Kyoto 
protocol targets in their own communities through actions 
ranging from: one, anti-sprawl land use policies, urban forest 
reforestation, restoration projects, and public information 
campaigns; two, urging their state governments and the federal 
government to meet or beat the greenhouse emission reduction 
target suggested for the United States in the Kyoto protocol; 
and, three, urging the U.S. Congress to pass greenhouse gas 
reduction legislation and establishing national emissions 
trading systems.
    The mayors invited to speak before the Committee today 
represent a myriad of approaches to reducing the global warming 
pollution locally. Their cities range in populations and 
geographic location.
    Gainesville, Florida's tree cover and conservation policies 
protect infrastructure and land from hurricanes increasing in 
number and intensity. The city is also maximizing its public 
utility to run efficiently.
    Portland was the first U.S. city to adopt a local global 
warming policy. And it is the first city to meet the reduction 
goal of the Kyoto treaty. Portland's location in the Pacific 
Flyway means that the city must give special attention to the 
critical resting, feeding, and nesting habitat for migratory 
birds.
    And Chicago's dense urban population requires flexible 
planning and urban forestry, as evidenced by the green rooftops 
throughout Chicago. The city has also linked training with 
their environmental goals. Chicago's Department of Environment 
created the Chicago Center for Green Technology, Green Tech U., 
to train people in green building practices.
    I am pleased to have these mayors before us today. It is a 
special treat. My time for an opening statement has expired. I 
turn to recognize the gentleman from Wisconsin, the ranking 
member of the Committee, Mr. Sensenbrenner.
    [The statement of Mr. Markey follows:]

    [GRAPHIC] [TIFF OMITTED] T8063A.001
    
    [GRAPHIC] [TIFF OMITTED] T8063A.002
    
    Mr. Sensenbrenner. I thank you very much, Mr. Chairman.
    Last week I gave a speech to the Energy Efficiency Forum, 
where I said that as Congress searches for solutions to global 
warming, we should be mindful of what works and what doesn't.
    I noted that President Bush's emphasis on voluntary 
reductions of greenhouse gas emissions, which helped the U.S. 
reduce its carbon dioxide emissions by 1.2 percent last year, 
was proving more effective than many European countries' 
efforts to reduce greenhouse gases under the Kyoto treaty.
    From the early indications, it seems that the Kyoto treaty 
isn't working. Many European countries are far off their 
emission goals. Unfortunately, meeting the targets set forth in 
the Kyoto treaty isn't as easy as it sounds, as shown by some 
of the testimony we will receive today from mayors across the 
country.
    The testimony of Gainesville, Florida mayor, Hanrahan, 
shows how exceedingly difficult it is to meet the Kyoto 
treaty's goal of reducing greenhouse gases by seven percent 
from 1990 levels. Gainesville has introduced several 
initiatives to help reduce greenhouse gas emissions but is 
still on path to exceed its target by one million tons, or 36 
percent.
    The headline in yesterday's Chicago Tribune--and, for the 
record, I got mine on the online version, rather than by buying 
a tree that the Chicago Tribune bought to print the thing up--
suggested Mayor Daley of Chicago is also finding it difficult 
to meet the city's green goals. The Tribune article said that 
the Chicago city government is falling well short of its goals 
of reducing greenhouse gas emissions.
    Since Chicago is one of nine city, state, or county 
governments participating in the voluntary Chicago climate 
exchange, the article notes that Chicago taxpayers could soon 
be forced to buy greenhouse gas allowances.
    I am not criticizing either Chicago or Gainesville for 
their efforts. I led the congressional delegation to the Kyoto 
treaty negotiations in 1997. And I said back then, as I 
continue to say today, that the Kyoto treaty set forth 
unrealistic goals. In January, the Institute for Local Self-
Reliance, a Minneapolis-based nonprofit, released a survey of 
ten Kyoto cities in the U.S. And there are difficulties in 
meeting the emissions reductions that at least 500 mayors have 
endorsed by signing onto the U.S. Conference of Mayor's climate 
protection agreement.
    The report estimated that most of these cities will fail to 
meet the goals. The report also notes that many greenhouse gas 
reduction initiatives are funded from state and federal 
sources. If cities, counties, and states want to take efforts 
to reduce greenhouse gas emissions, that's great. But residents 
of these local governments should not expect a free ride in the 
cost of making the reductions. After all, it is a lot easier to 
say you are reducing emissions than to actually pay for the 
reductions.
    To paraphrase former U.S. Supreme Court Justice Louis 
Brandeis, state and local governments can be laboratories for 
democracy and policy. As Congress searches for what works in 
global warming policy, we should closely examine what is 
working in the states and cities across the country but also 
what isn't.
    With that in mind, I am interested in hearing more from 
Portland. Portland has been working on greenhouse gas 
reductions for more than a decade. And Mayor Potter is able to 
claim actual reductions from the city's 1990 levels while still 
showing economic growth. However, with all of its successes, 
Portland still isn't meeting the Kyoto goal.
    I am sure Mayor Potter has several ideas about what works 
and what doesn't. Specifically I am interested in hearing from 
him about what role land management policy played in achieving 
the results. I am also interested in hearing the economic 
growth Portland experienced during that period. I believe that 
any global warming policy has to protect jobs and the economy. 
And I would like to know more about how Portland was able to 
achieve this balance.
    In reading the testimony for today's hearing, I see many 
references to technological initiatives that could be very 
promising. As I have said before, advancing technology must be 
a key principle for any global warming policy.
    And I am pleased to see city mayors looking for 
technological solutions. By implementing a new technology in 
their cities, these mayors are giving all of us a chance to see 
what works and what doesn't. And I think Congress should pay 
close attention to the results.
    Thank you, Mr. Chairman.
    The Chairman. The gentleman's time has expired. The Chair 
recognizes the gentleman from Oregon, Mr. Blumenauer.
    Mr. Blumenauer. Thank you, Mr. Chairman.
    The Chairman. I will give you this microphone. I will ask 
the staff, if they could, to please try to find someone who can 
see if they can make the other microphones operative.
    The gentleman from Oregon.
    Mr. Blumenauer. Thank you, Mr. Chairman.
    Perhaps limiting the Committee to one microphone might have 
ancillary benefits. I am sure Mayor Daley wants to do that with 
his city council.
    I appreciate very much your scheduling this hearing and 
bringing people together from the front lines. As I mentioned 
to the Chairman, I hope this doesn't make him think that he is 
off the hook to schedule a hearing in Portland, where we can 
watch it on the ground.
    Before making my opening comment, I do want to make a 
reference to Mr. Walden, who, Mayor Potter, was sorry is not 
here. He had a death in the family and had to go back. And he 
wishes that he were here to greet you in person.
    Mr. Chairman, your point about the focus for the problems 
that relate to global warming in the urban environment I think 
are very important. We are now witnessing for the first time in 
human history half the world's population living in cities. And 
the growth that is going to occur between now and 2050, two and 
a half billion people will be concentrated in these urbanized 
areas. And what we have here today are some examples of some 
leadership that has been exercised around the country that will 
help us understand how we cope with this.
    I obviously have a soft spot in heart for Portland, having 
a chance to have done a lot of the work with Mayor Potter in 
the past and having harassed the Committee a little bit about 
these items, I really appreciate the chance to have somebody 
referencing it on the ground.
    Chicago really hasn't gotten the attention I think that it 
deserves for its leadership with the Metropolis 2020, with the 
work that Mayor Daley has done, not just in his city but with 
the metropolitan initiative. And I look forward to hearing what 
is going on in Gainesville.
    Mr. Chairman, I hope that we will be able in the course of 
the testimony and the interaction with our witnesses to focus 
because I do agree with what our ranking member said. It is 
difficult to do. But I think the experience we found in our 
community is it actually can have positive effects. It actually 
brings young people, well-educated and interested, to come to a 
community like that. And the focus I think ought to be on how 
the federal government partners with our friends so we can 
achieve this difficult task together.
    Thank you.
    The Chairman. Thank you.
    The gentleman's time has expired. The Chair recognizes the 
gentle lady
    Ms. Miller. Mr. Chairman, in the interest of time, I will 
forego any opening statement. I just want to welcome the 
witnesses. I am delighted to have all of them here. And I want 
to recognize Mayor Daley's great work on the Great Lakes. And I 
appreciate them coming. And I will forego an opening statement.
    The Chairman. The Chair recognizes the gentle lady from 
California, Ms. Solis.
    Ms. Solis. Thank you, Chairman Markey. And thank the 
witnesses for being here also.
    I am not going to read my statement. I will submit it for 
the record.
    But just to tell you that in a diverse district that I 
represent, two of my cities that have well over 70 percent 
minority population--one is Chinese, one is Hispanic--they have 
decided to be partners in sustainable growth. And they want to 
know how the federal government can become bigger partners in 
this. So I am dying to hear what you have to say and look 
forward to that and would just ask that my statement be 
submitted for the record.
    The Chairman. Great. The Chair recognizes the gentleman 
from Kansas City, the former mayor of Kansas City, Mr. Cleaver.
    Mr. Cleaver. Thank you, Mr. Chairman.
    In the interest of time, I will forego my opening statement 
except to welcome the people who serve on center stage in the 
American drama: the mayors.
    One of the things we have heard, you know, both at home and 
abroad, is that America is not doing anything with regard to 
global warming. And that is not true. The federal government is 
not doing anything with regard to climate change, but the 
mayors of our country, representing 65 million people, are, in 
fact, on the front line. And you have already moved to respond 
to the Kyoto agreement by reducing greenhouse gas emissions 7 
percent by 2020. So I just want to commend you and thank you 
for being here.
    The Chairman. Okay. The Chair recognizes the gentleman from 
California, Mr. McNerney.
    Mr. McNerney. I just want to welcome the mayors. I think 
the cities in this country are showing tremendous leadership. 
And they have a lot to offer. Cities like Los Angeles, Chicago 
are tremendous sources of greenhouse gases. And the buildings 
in these cities and the buildings across America produce more 
greenhouse gas my understanding is than the transportation. So 
there is a tremendous opportunity. Leadership can be taken and 
found. And if you guys run with this, it will really put us 
forward.
    So I really look forward to hearing you. I welcome you to 
this hearing. And I will reserve the balance of my time.
    The Chairman. Great. The Chair recognizes the gentle lady 
from South Dakota, Ms. Herseth Sandlin.
    Ms. Herseth Sandlin. Thank you, Mr. Chairman, for having 
the hearing. I, too, will be brief.
    I want to welcome our witnesses today. I have learned a 
tremendous amount in representing a sparsely populated state, 
like South Dakota, from my good friend, Mr. Cleaver, former 
mayor of a major metropolitan area, learning of his initiatives 
and look forward to hearing from his colleagues in the 
initiatives that you are undertaking to address greenhouse gas 
emissions.
    Thank you, Mr. Chairman. I yield back.
    [The prepared statement of Mr. Cleaver follows:]

    [GRAPHIC] [TIFF OMITTED] T8063A.003
    
    The Chairman. Great. So that concludes opening statements 
from the members of the Select Committee. So we will now turn 
to our extremely distinguished panel. We will begin with mayor 
Pegeen Hanrahan, the Mayor of the City of Gainesville. She was 
reelected mayor in March of 2007. She is a registered 
professional engineer and holds a Master's degree in 
environmental engineering from the University of Florida. So 
you couldn't have a better prepared mayor to take on these 
challenges.
    We welcome you, Madam Mayor. Whenever you are ready, please 
begin.
    Ms. Hanrahan. Thank you so much, Chairman Markey and 
members of the Select Committee.

STATEMENTS OF PEGEEN HANRAHAN, MAYOR, GAINESVILLE, FLORIDA; TOM 
 POTTER, MAYOR, PORTLAND, OREGON; AND RICHARD M. DALEY, MAYOR, 
                       CHICAGO, ILLINOIS

                  STATEMENT OF PEGEEN HANRAHAN

    Ms. Hanrahan. It is a great honor to be here. I want to 
address the three questions that you asked in the invitation. 
First, what got Gainesville interested in the issue of global 
warming and what caused us to take it on? Second, what are we 
doing to try to impact our greenhouse gas emissions? And then, 
third, how can our federal government help?
    Gainesville you may know is most distinguished as the home 
of the University of Florida, which has about 50,000 students, 
is the fourth largest university in the nation. And we are the 
12th largest in terms of research dollars.
    We are our state's land grant university. And as such, we 
have very prestigious programs in agriculture, engineering, 
life sciences, and other areas of primary research that tell us 
about the actual occurrence of global climate change and, maybe 
more importantly, what we can actually do to change it.
    We are also fortunate to be a public power community. 
Gainesville Regional Utilities serves about 89,000 residential 
and commercial customers. We are the fifth largest public 
utility in Florida. And we offer electric. We have two electric 
generating stations, one primarily goal, one primarily natural 
gas. We have water waste, water telecommunications, and also 
natural gas.
    So a number of years ago, about four years ago, we got 
concerned about our energy supply future and how we were going 
to meet our growing needs.
    As you know, Florida is a very strong growth state. And 
what we first were brought by our staff is what would you call 
a clean coal technology. But as we looked further into the 
issue, both our citizens and our elected officials became 
concerned about not only the environmental cost of moving 
forward with that option but also the economic cost.
    So today, in fact, we are looking at other alternatives, 
including biomass-based alternatives. We visited many other 
communities to look at their options in that area. And we are 
excited by the technological advances, including things like 
plasma arc technology, which I saw demonstrated at Georgia Tech 
University. We are a very forestry-rich area. So there is a lot 
of waste wood.
    We are also first seeking to maximize our opportunities 
with respect to energy efficiency. But I will get back to that 
in just a moment.
    A second major motivator was, of course, the impacts of 
major storms. Although Gainesville is an inland community, we 
were very severely hit by Hurricanes Jean and Francis in 2004. 
We lost 70 percent of our electrical grid.
    And, as you I am sure realize, there has been a great 
insurance crisis in the State of Florida. My husband's home 
community of Pensacola lost about 16,000 homes, either 
community or through severe damage. And then, of course, with 
our coastal areas, the sea level rise threat is quite 
substantial.
    This also impacts our agricultural situation. We are the 
nation's fifth largest agricultural state.
    So, in summary, we are concerned about our pocketbook, our 
sense of security, and the very food that we eat.
    So what are we doing? Through our public utility, we are 
offering residential incentives for upgrading air conditioning, 
repairing leaks in air ducts, heat recovery units for electric 
water heaters, solar water heaters, a number of programs 
specifically for low-income residents, including low-interest 
loans, and we actually have high school students going door to 
door in lower-income neighborhoods, switching out light bulbs.
    We also have substantial benefits for our commercial 
customers, including rebates of up to 40,000 per location for 
up to 50 percent of the project costs. And these work very 
nicely with the state and federal benefits that are provided 
for. We also have a landfill gas to energy project, where we 
gather the methane from a closed county landfill. We repowered 
an older steam generating plant. We have green building 
programs and so on.
    I do want to address some of the statements. It is true 
that we are a signatory to the Conference of Mayors climate 
protection agreement and that we are not currently on track to 
fully meet that 7 percent reduction from 1990 levels by 2012.
    Energy use is rising across the United States, and 
Gainesville is no different. However, I would say, even if we 
continue our current fuel mix, we are only 36.8 percent below 
goal. If we make the changes that we are talking about, we will 
I think be able to meet it.
    I do want to close by saying we do support the energy and 
environment block grants in terms of what Congress can do to 
assist us. We are very fond of CDBG. And that is a nice program 
that addresses the local needs. We also support clean renewable 
energy bonding program. The American Public Power Association 
is suggesting some changes to that.
    The federal government can help with programs related to 
transit. We are a very strong transit community. We had a 
million and a half passengers a year in '96, when I was first 
elected. We have over nine million today. Transit can work if 
it is done properly and land policy related to conservation 
easements, agricultural easements, transfer of development 
rights, and so on.
    I will close. I know my time has concluded. But I also do 
want to state that I am very impressed by your willingness to 
take this on and engage in this debate. And I am very happy to 
answer any questions you may have.
    [The prepared statement of Ms. Hanrahan follows:]

    [GRAPHIC] [TIFF OMITTED] T8063A.004
    
    [GRAPHIC] [TIFF OMITTED] T8063A.005
    
    [GRAPHIC] [TIFF OMITTED] T8063A.006
    
    [GRAPHIC] [TIFF OMITTED] T8063A.007
    
    [GRAPHIC] [TIFF OMITTED] T8063A.008
    
    [GRAPHIC] [TIFF OMITTED] T8063A.009
    
    The Chairman. I thank you, Madam Mayor, very much.
    Our second witness is Mayor Tom Potter of the City of 
Portland, Oregon. Congressman Blumenauer has been bragging 
about you and your city to the Committee here since its 
inception. And we are very lucky to have you here in town so 
that you can testify in Washington as we are considering this 
omnibus energy bill and the roles that cities play and maybe 
the help that Congress should give to the cities in the years 
ahead. Mayor Potter for 38 years has been the police chief, a 
community leader, civil rights activist. He was elected mayor 
in 2004.
    Welcome, Mr. Mayor. Whenever you are ready, please begin.
    Mr. Potter. Thank you, Chairman Markey and also to the 
members of the Committee.

                    STATEMENT OF TOM POTTER

    Mr. Potter. My name is Tom Potter. I am the mayor of 
Portland, Oregon. I want to thank you for the invitation to 
testify today about the great progress we have made in Portland 
on reducing emissions and lowering energy dependence while at 
the same time making our community and our economy stronger.
    I am proud of what we have accomplished in Portland to 
address global warming. And I believe we offer not only an 
example to follow but real hope in a situation that I believe 
is truly dire.
    Portland has been dealing head on with global warming since 
1993, when we created a global warming action plan that was the 
first of its kind by any U.S. city. Since that plan was 
adopted, we have reduced local greenhouse gas emissions to one 
percent below our 1990 level. I believe we are the only city in 
the United States that can make that statement.
    But the real lesson for others is that we have not only 
been able to make our city and our planet healthier. We have 
also been able to do it in a way that has been good for our 
economy, good for job growth. Portland knows firsthand that we 
can combat global warming while keeping our country strong and 
growing.
    Even as Portland's population was growing 16 percent, we 
were able to reduce our per capita emissions while adding jobs 
and growing wages three times faster than inflation.
    These results are a combination of good public policy and 
real dedication by our citizens and our businesses. And to 
nurture this culture, the city has made some bold policy moves, 
the most fundamental of which was effective planning for 
growth.
    Oregon law says that all cities must increase density in 
the urban core while preserving farmland outside the city. The 
idea is to keep the city compact, mix jobs with housing, and 
encourage development near transit; in other words, build in 
place that keeps people close to their jobs and recreation. 
This has not only been smart environmentally but has also had 
the social and economic benefit of keeping Portland's downtown 
alive, vibrant, and growing.
    Where many American cities are losing their downtown, 
Portland's has become a highly coveted place to live, work, and 
play. Portland also has focused early on innovative 
transportation policies. Congressman Blumenauer, a member of 
this Committee, has been leading this effort for nearly 30 
years.
    Our choice in the '70s and '80s to use federal 
transportation dollars to build light rail systems, instead of 
freeways, is a corner of Portland's success, a cornerstone. A 
planned highway to Mount Hood that would have destroyed 
neighborhoods was shelved in favor of spending those dollars on 
a light rail system that people from around the world come to 
study.
    Congressman Blumenauer, thank you again for your 
leadership. Today we have a world-class transit system that 
includes both light rail and modern streetcar service. The 
number of people riding transit has increased 85 percent since 
1990.
    While helping the environment, the economic bonus is that 
the long rail lines, we have seen literally billions of dollars 
of new development and investment, housing, and retail located 
primarily based on its proximity to public transportation. This 
synergy between transportation and land use has created a 
vibrant community for people to work, live, and play.
    We have also worked hard to build demand for varied 
transportation choices. For instance, five percent of all trips 
in Portland are by bicycling. That has quadrupled in the last 
ten years. We are now putting in double-wide bike lanes to 
accommodate bike traffic.
    This is partly because we have built the infrastructure 
that makes people feel safe on their bikes. Portland has over 
275 miles of bike lanes, paths, and designated bicycle routes.
    Portland has also a program called SmartTrips. We go into 
neighborhoods and talk to folks, asking them to start with a 
small change, shifting one car to two cars a week, instead of 
five. Residents can order transit, bike, and walking maps from 
the city. And those things are delivered to them within a few 
days. And I might add it is delivered by bicycle.
    This program really works. In one neighborhood alone, we 
have reduced car travel by 19 million miles in one year. We are 
now in our fifth neighborhood. And each person has consistently 
shifted about ten percent of their drive-alone trips just by 
getting solid information and a little encouragement.
    Because they are biking and walking and they are taking 
transit, Portlanders drive seven percent fewer miles per capita 
than they did in 1993. They use nine percent less gasoline per 
capita.
    We are also looking hard at the buildings that we live and 
work in. Since 1987, the City of Portland has worked with 
landlords and building owners to weatherize more than 44,000 
apartment units. The families who live in those buildings now 
save $4 million each year on their utility bills.
    Portland has a green building policy that says any city 
building has to meet LEED gold standards and any private sector 
project getting public funds has to meet LEED silver standards. 
That is why Portland has more LEED-certified buildings than any 
other city in North America.
    City hall has been leading by example. We save about $2.6 
million a year on energy efficiency. For instance, we have 
changed all of our traffic signals to LEDs. We have retimed 
traffic flights. We have replaced our car fleets with hybrids 
and smart cars. Our diesel vehicles are 20 percent bio and 99 
percent biodiesel. Parking meters are solar-powered. Drinking 
water systems include turbines to generate power and many other 
things.
    In Portland, we know from experience that doing good by the 
planet can do good by the economy as well.
    I want also to say that I believe that the federal 
government can be of great assistance to local communities. You 
can help prime the pump. Create the demand, and the results 
will follow. And I think Portland has borne that out.
    Thank you.
    [The prepared statement of Mr. Potter follows:]

    [GRAPHIC] [TIFF OMITTED] T8063A.010
    
    [GRAPHIC] [TIFF OMITTED] T8063A.011
    
    [GRAPHIC] [TIFF OMITTED] T8063A.012
    
    [GRAPHIC] [TIFF OMITTED] T8063A.013
    
    [GRAPHIC] [TIFF OMITTED] T8063A.014
    
    The Chairman. Thank you, Mr. Mayor, very much.
    Our first witness represents a small city. Mayor Potter 
represents a city of about 560,000, about the size of the City 
of Boston, just about the identical population. And now we have 
the mayor of Chicago.
    And I just want to say about you, Mr. Mayor, that when this 
Committee traveled to Berlin to meet with Chancellor Merkel 
three weeks ago about her initiative on climate change, meeting 
with Speaker Pelosi with her, it was clear that she intended on 
that being at the top of the agenda, Chancellor Merkel, for the 
summit of the G-8 next week.
    I was watching NBC television Nightly News on the night 
that she was advancing that issue. And it was the lead story on 
NBC that night. Brian Williams then cut back, and he's in 
Chicago. And who did he interview to talk about the American 
perspective on climate change? It was Mayor Daley for the next 
three or four minutes live.
    That was an indication, Mr. Mayor, of how you are viewed in 
our country and around the world on these issues. As a leading 
mayor on this issue, we welcome you and are honored to have you 
here today.
    Mr. Daley. Thank you very much.

                   STATEMENT OF RICHARD DALEY

    Mr. Daley. Good afternoon, Chairman Markey and members of 
the Committee. I thank you for the opportunity to appear before 
you this afternoon. My name is Richard M. Daley. I am mayor of 
the City of Chicago. I am pleased that the Committee is holding 
this hearing to learn about the mayor's initiative to reduce 
global warming.
    I am very proud to sit with Mayor Potter and Mayor 
Hanrahan, who are great mayors, in regards to the environmental 
movement. We are here to do our part, not just to point 
fingers. Mayors learn from one another. From the two mayors 
here, I learned quite a bit about the environmental movement.
    We are really seeking the federal government to become a 
partner, look at creativity, look at what has really happened 
to decision-making in local government, how we can really 
improve environmental improvements to our cities, to the 
country, and to the world.
    The City of Chicago has been a leader on environmental 
issues for some time. Protecting the environment is very 
important, also makes economic sense and improves the quality 
of life. Our actions are making Chicago a much more attractive 
place to live, new business, and it helps reduce the cost of 
living and operating. Chicago businesses and residents are 
following our lead and are eager to do more.
    Our programs are achieving a range of environmental 
benefits, including reduction in greenhouse gas emissions, 
mitigation of possible future impacts of climate change.
    Our municipal operations site, our environmental agenda 
ensures that all 40 city departments incorporate environmental 
initiatives in the day-to-day municipal activities.
    We now have over three million square feet of green roofs, 
either installed or under construction, more than any other 
city in North America. Every public building in Chicago will 
now be LEED-certified by the U.S. Building Council. We have 
retrofitted more than 15 million square feet of city-owned 
office space, saving more than 4 million a year. We are buying 
five percent of our power from renewable sources. We are 
retrofitting our municipal fleet with cleaner vehicles and 
cleaner fuels.
    We have installed a rain tunnel at McCormick Place 
Convention Center that will return 55 million gallons of water 
per year into Lake Michigan, instead of sending this water into 
our sewage system.
    We are also actively engaging the private sector and 
homeowners. Our local efforts, green efforts; permits for green 
technology; educating developers, architects, and engineers; 
launching a waste to profit network, which recognized that a 
company's waste is another company's raw materials; developing 
a green business strategy to help green existing products, 
practices attract new green industry and technology into our 
city; distributing thousands of rain barrels built by an ex-
offender program; forming conservation clubs in all of the 
Chicago public high schools to encourage young people to 
improve their own neighborhood environments.
    Some of our work has been done in partnerships with the 
federal agencies and congressional support. We are very 
grateful for the continuing partnership and support we receive 
from the federal government.
    We know there is much more to do, especially when we begin 
to understand more about climate exchange. We are developing a 
comprehensive climate change strategy. We want to know how 
climate change is expected to impact city operations and 
infrastructure. We want to make good decisions for Chicago's 
future.
    So far our research predicts a hotter and dryer climate 
along with more storms, which may require changes in the way we 
currently manage all of our operations. With energy and 
transportation as the largest producer of greenhouse gases, new 
federal policies in these areas will be very, very important to 
urban communities.
    In particular, federal efforts to accomplish the following 
would be beneficial: increase investments in public 
transportation, very simple;--nothing is more important to the 
environment than a vibrant public transportation system and not 
just in the big cities but throughout the metropolitan areas--
increase fuel efficiency standards for cars and trucks; provide 
more federal tax incentives to encourage energy conservation, 
energy efficiency, and renewable energy; invest in alternative 
energy technologies and fuel research; build a more resilient 
economy, one that is better able to compete in international 
markets; and, of course, lead by example.
    Local government also needs more federal resources so that 
can continue to invest in local initiatives called creativity. 
Many great ideas already exist, but most local governments 
simply lack the resource to implement them.
    We strongly encourage this Committee to support the Energy 
and Environmental Block Grant of 2007, H.R. 2447. This act was 
developed by the U.S. Conference of Mayors, is modeled after 
the successful Community Development Block Grant program. It 
would give grants to local governments to make real 
improvements dealing with the environment.
    I encourage the Committee to evaluate how cities could be 
rewarded for investing local resources and projects that 
achieve concrete reductions in greenhouse gases.
    In summary, Chicago and the other cities will continue to 
push forward on environmental initiatives. We have done that. 
Cities which are home to the vast majority of American 
population--and it is growing--are leading the way in 
addressing environmental challenges and must continue to do so 
on behalf of their residents.
    I thank you for the opportunity for me to testify. I look 
forward to working with each and every one of you on behalf of 
the environmental movement. Thank you.
    [The prepared statement of Mr. Daley follows:]

    [GRAPHIC] [TIFF OMITTED] T8063A.015
    
    [GRAPHIC] [TIFF OMITTED] T8063A.016
    
    [GRAPHIC] [TIFF OMITTED] T8063A.017
    
    [GRAPHIC] [TIFF OMITTED] T8063A.018
    
    [GRAPHIC] [TIFF OMITTED] T8063A.019
    
    [GRAPHIC] [TIFF OMITTED] T8063A.020
    
    The Chairman. Thank you, Mr. Mayor, very much.
    We will now turn to questions from the Select Committee 
members. We will first recognize the gentleman from Oregon, Mr. 
Blumenauer.
    Mr. Blumenauer. Thank you. Thank you, Mr. Chairman. I 
appreciate your courtesy.
    I was struck, Mayor Daley, with your phrase a moment ago 
about ``lead by example.'' Clearly we have three very specific 
examples from cities that are leading by example. And I wonder 
if you have some thoughts or observations about how the federal 
government aside from being there with resources, transit, and 
so forth--are there other areas that occur to you that the 
federal government could lead by example in your communities in 
terms of our stewardship?
    Mr. Daley. Well, construction of every federal building, 
every post office, every federal building in America if they 
are led by example in regards to energy, in regards to the type 
of material they are building, the cost of energy inside, water 
retention. They are exempted from all local laws. So we can do 
everything we want. But that one building doesn't even follow 
many times the local codes in regards to building codes or 
environmental movement.
    And so I think the mayors here, we lead by example. We did 
this before the word ``global warming'' was on everyone's 
docket. Most of these cities have been doing it for many, many 
years, as Mayor Potter pointed out in regards to his city.
    Mr. Blumenauer. Either of you have other thoughts about 
what we should be doing?
    I will say, Mayor Daley, I did introduce legislation to 
require the post office to obey local land use laws, zoning 
codes, and building requirements.
    Mr. Daley. Are they?
    Mr. Blumenauer. And that actually almost made it into the 
postal reform. But I couldn't agree with you more.
    Other examples that----
    Ms. Hanrahan. I will just echo Mayor Daley's comments that 
certainly when a federal facility is built in your community, 
you would like to see that facility really be a shining 
example.
    And, for some reason, post offices do sort of hit mayors. 
We have a beautiful downtown post office that was, of course, 
abandoned. And we have a '70s era post office. And now it is 
sort of out by the interstate.
    I just came from a meeting with my own congresswoman, 
Corrine Brown. And she is working on an expansion to our VA 
hospital. Right next door to our VA hospital is an expansion of 
our Shands Cancer Hospital, which we are doing a joint project 
with them on combined heat and power. And that will 
dramatically reduce the impacts of their energy use. Hospitals, 
of course, have very high energy reliability standards and so 
on. It is also a LEED-certified building, so excellent example.
    Mr. Blumenauer. Mayor Potter?
    Mr. Potter. When I think about the difference between 
cities and the federal government, obviously you folks have a 
very different role from the cities, but your role can be very 
helpful to the cities in how you formulate your policies, how 
you encourage local communities to begin to develop 
technologies that will make them more sustainable.
    For me, the biggest role that the federal government could 
possibly have beyond the money is that by establishing those 
standards, by creating in the marketplace a demand for change I 
think can be of the most value to communities across our 
country.
    Mr. Blumenauer. I really appreciate that. And I hope, Mr. 
Chairman, this is something we can consider for the federal 
government to set a standard for the vehicles that it 
purchases, for the building codes that we are going to honor, 
and hopefully at least meet what you have, if not do them in a 
higher standard.
    Mayor Potter, one of the things we are working on in the 
Ways and Means Committee now and bringing forward is energy tax 
legislation to promote use of energy efficiency and renewable 
energy. It is very likely, taking a page from the mayors, that 
the bill will include some green tax credit bonds or some 
funding mechanism for community programs and initiatives as 
well as for loans and grants to consumers who want to make 
energy efficiency improvements to their homes or install new 
generating capacity.
    Is this something that the cities are poised to move on, 
that you have the infrastructure that you could take advantage 
of that quickly if it were to be enacted?
    Mr. Potter. Yes. You know, currently the City of Portland 
does provide tax benefits to companies who do green building, 
but we could do it on a much larger scale. We could be more 
innovative in the types of green building that is going on in 
our country. And there is a huge range of activity going on. I 
think that through these green tax credit bonds, that we could 
really begin to help not just shape public policy but public 
thinking about what is the best use for money when money is 
lean or when we have extra.
    How do we begin to shape public thinking in a way that 
begins to result in better policies?
    Mr. Blumenauer. Mr. Chairman, I see my time has expired. 
May I make just one request of the witnesses because embedded 
in their testimony was the economic impact? My sense is that in 
each of them, their experiences, this has had a positive 
economic impact. And I just wondered if they might be able to 
supply the Committee----
    The Chairman. Sure.
    Mr. Blumenauer [continuing]. With information about the 
economic impact of their energy-efficient initiatives. Thank 
you, sir.
    The Chairman. And we will include your answers in the 
record, but you might get a chance with some of the other 
members to put it in your verbal testimony.
    The gentleman's time has expired. The Chair recognizes the 
gentleman from Wisconsin, Mr. Sensenbrenner.
    Mr. Sensenbrenner. Thank you very much, Mr. Chairman.
    I, too, believe in leading by example. And I noticed in 
yesterday's Chicago Tribune the lead story says, ``Daley City 
Not So Green.'' And in reading the story and looking at the 
sidebar, I noticed that the carbon emissions in the City of 
Chicago between 2003 and 2004 were reduced by 65,000 tons. 
Between '04 and '05, there was an increase of 234,000 tons and 
from '05 to '06 a further increase of 8,000 tons.
    Mayor Daley, can you explain why there was this big 
increase in emissions between 2004 and 2005?
    Mr. Daley. Well, I can't get into the particulars, but one 
thing, we are sitting down with the Tribune, trying to find out 
where they got these figures from because we have been a member 
of the Chicago climate exchange since it was formed. It is a 
voluntary, legally binding greenhouse gas emission reduction 
platform.
    The city has met its reduction goals every year since 
becoming a member of that exchange within the rules and 
regulations established by the climate exchange. The city is 
committed to purchase 20 percent of our electricity from 
renewable energy sources by 2010. We purchased renewable energy 
credits equivalent to five percent of the city's electricity in 
2006. The required 60,000 credits for renewable energy were 
obtained through the purchase of landfill gases. So we are 
doing everything possible.
    I think there are some discrepancies in there. I mean, that 
is why we are sitting down with the person who did the study.
    Mr. Sensenbrenner. Well, I know my eyes are getting a 
little weak, but underneath the sidebar that contains the 
figures that I quoted to you, it says the source is the City of 
Chicago.
    And apparently the city officials would only discuss their 
participation in the exchange by e-mail. Don't you allow your 
city officials to verbally answer questions? That might be part 
of the source of the problem.
    Mr. Daley. I don't know. I will find out for you.
    Mr. Sensenbrenner. Okay.
    Mr. Daley. But this has nothing to do with what we are here 
for. It deals with the whole environmental movement. It is not 
just global warming.
    Mr. Sensenbrenner. Well, we know, reclaiming my time, I 
guess I would beg to differ with you because I think that the 
Chairman selected each of the three of you to talk about how 
your cities have been reducing greenhouse gas emissions.
    And what appeared in the front page of the major newspaper 
in your city, Mayor Daley, indicates that there has been a ten 
percent increase in emissions over a period of time when you 
had promised there would be a four percent reduction. And I 
think this shows how difficult it is to meet these kinds of 
targets.
    Mr. Daley. It is difficult. It is challenging. But, 
remember, you can't believe everything that you read in the 
newspaper about any public official.
    [Laughter.]
    Mr. Sensenbrenner. Well, you know, we run that risk as 
well, but, you know, as you know, disputing a newspaper is 
sometimes like getting in an argument with a drunk. And I kind 
of would like to know whether the smell that is emanating from 
the Chicago Tribune is based on fact or based on pique. And I 
would like to get an answer particularly on why there has been 
this big increase in emissions between 2004 and 2005.
    The other question that I would like to ask you before my 
time runs out is the Tribune article says that in a June 1 
response to questions about Chicago's participation in the 
exchange, an Environment Department spokesman wrote that the 
city had just purchased credits worth 60,000 megawatt hours of 
wind power, which is enough to meet half of your renewable 
energy pledge. Six days later the department official said that 
the deal had fallen through over a price dispute.
    Now, one of the things we are looking at is cap and trade. 
And this is kind of a cap and trade on the municipal level. Can 
you give me some details about the price dispute that caused 
this deal to fall through?
    Mr. Daley. Well, appropriately in regards to the price, we 
thought it was a little too high for us. And we decided to 
renegotiate it, like anything else. You just don't make a 
decision that would not benefit the citizens or the 
environment, especially the cost factor.
    So, like anything else, we are still in negotiations.
    Mr. Sensenbrenner. But aren't these credits supposed to be 
based on market forces, meaning if there is more supply than 
demand, the price goes down and if there is more demand than 
supply, the price goes up?
    And I would kind of like to know why you thought they were 
charging the city too much and why you felt that way.
    Mr. Daley.  Well, we just felt in regards to our 
negotiations--this took place over a number of months and 
years, too. This did not come up in the last week or two weeks.
    So, appropriately, in negotiations, you are going to differ 
on different items. And you are not going to sign an agreement. 
So then, in turn, you go back to negotiations, which we have 
had with the supplier.
    Mr. Sensenbrenner.  Thank you very much. My time is up.
    The Chairman.  The gentleman's time has expired. And I am 
sure that the mayors who are here would say that dealing with 
global warming is a long-term commitment and any one year is 
just obviously part of a long-term commitment to reducing those 
greenhouse gases and the policies put in place aimed at that 
goal.
    Let me turn and recognize the gentle lady from California, 
Ms. Solis.
    Ms. Solis.  Thank you.
    Well, I want to thank you for coming, the mayors. You have 
some very good information that I want to take back to my city, 
Los Angeles.
    Some of the challenges that we face, particularly for a 
place like Los Angeles, is how do you include those under-
served communities, the communities of color? And I would like 
each of you, if you can, to just touch on that, what you are 
doing and what we as a federal government can do to help with 
that.
    One notion that is very important also is our youth. How do 
we get them involved in this new technology? If you have any 
ideas, please share them.
    Ms. Hanrahan.  I will be happy to start because this is a 
particular focus in Gainesville. Gainesville, as I mentioned, 
is a university community, but we also have a pretty 
substantial poverty-stricken population. And there is a real 
disconnect.
    A lot of the payback in the capital investment goes to the 
person paying the utilities, but the person making the 
investment is oftentimes not that individual, especially for 
lower-income people.
    So we are trying to break through that by working, for 
example, with our lending institutions so that we can guarantee 
loans so that the person who is paying the utilities can 
perhaps upgrade their equipment.
    I mentioned the low-income children going door to door 
replacing light bulbs. That has been a really fun project and 
having some substantial results.
    And then we have a whole house program where we go in and 
actually replace equipment on an experimental basis to see how 
much we can do. We also have our churches very much involved. 
Our African American leadership is very excited.
    I just want to close by saying we aren't doing this--I 
mean, this is one of those things that isn't easy, but it is 
important. If it were easy, we would have done it by now. It is 
very similar to the '60s, when we had the goal to reach the 
moon. It's the same kind of a challenge.
    Ms. Solis.  Specifically you mentioned you have a 50,000-
student population. And my question is, is there any thought 
given to training from the university for these communities in 
these types of jobs perhaps?
    Ms. Hanrahan.  We do have some student groups that are, for 
example, changing out all of the lighting in the off-campus 
student housing. And they are able to do a very detailed study 
on the basis of that.
    We haven't connected the university students with the lower 
income population yet, but that is an excellent idea.
    Mr. Potter.  One of the programs in Portland that we have, 
we work with Portland State University, which is the largest 
university system in the State of Oregon. And they have a 
program called Capstone. Before any young person graduates from 
PSU, they have to perform community service. And so we have 
them working, for instance, as interns in the mayor's office 
but also working with the Office of Sustainable Development and 
assisting them in developing and being some of the foot power 
in that system.
    Last year we created a Children and Youth Bill of Rights 
that guarantees young people certain things, to include a roof 
over their heads, full good meals and caring adults in their 
lives. The city council is using that document as one of our 
policy documents when we make decisions on how to allocate 
funds.
    We also have done a visioning project last year going out 
and asking the community how they view Portland. And we 
specifically went to the under-represented communities. We have 
a large immigrant population in Portland. And the percentage 
that we have of the under-represented is higher in proportion 
to the other parts of the population, which didn't make 
necessarily the other parts of the population very happy. But 
the fact is that we heard things that we had not heard before.
    So we are working to do things such as reduce home 
ownership gap. For instance, African Americans in Portland have 
a 39 percent home ownership while whites have 61 percent.
    Those are the kinds of things that you can hear when you go 
out and listen to the community.
    Mr. Daley.  In Chicago, we are establishing a better 
science program in elementary schools, which is very deficient 
if you look at public schools in America, at the same time 
bring ownership into the school system with conservation 
clauses, both in elementary and high school. You have to get 
the young people thinking about their own school, about their 
own home, about their own block in regards to the environment. 
And so that is one major initiative we are doing.
    And also an example is just hiring ex-offenders dealing 
with our rebuilding rain barrels for many of our bungalows and 
tube flats all over the city in the conservation of water to be 
used for purposes for lawns and other things. That is an 
example of getting the community involved. But with the younger 
people, you need good programs.
    Ms. Solis.  Thank you. I raised this issue because we are 
contemplating introducing legislation that can possibly help 
provide a career path, streams to vocational education, 
community colleges, and the private sector, and to figure out 
how we get that youth population plus retaining because we are 
going to keep jobs here. That is the other exciting thing, that 
we don't have to outsource these jobs. They can stay here in 
our cities and in our communities. So I would at one point like 
to hear feedback on that.
    The Chairman.  The gentle lady's time has expired. The 
Chair recognizes the gentle lady from Michigan, Ms. Miller.
    Ms. Miller.  Thank you, Mr. Chairman.
    I again want to thank the witnesses for all coming. I was 
very interested to hear all of your various comments. I 
actually started my political career not as a mayor but as a 
township supervisor of a town of about 30,000. So I have a 
little bit of understanding and sensitivity to the job that you 
have at the local level. And you really are very much on the 
leading edge of things.
    But I can't miss this opportunity to ask a question of the 
mayor of Chicago because he and I had the honor of being the 
keynoters last year at the Great Lakes Day here on the Hill. 
And I applaud his work on the Great Lakes.
    Let me ask you, Mr. Mayor, if I could. As you are very 
familiar, the Great Lakes are fully one-fifth of the freshwater 
supply of the entire planet. All of us in the Great Lakes Basin 
are very, very concerned about diversion of the Great Lakes to 
the very hot, dry, thirsty Southwest, our other areas of the 
nation. And we certainly don't want that to happen.
    You know, we are struggling about this whole issue of 
climate change, how much of it is manmade, if it is manmade how 
much of it is just cyclical weather patterns, what have you. 
And, in particular, I guess my question goes to the lake levels 
in the Great Lakes.
    For instance, I am aware of the Chicago Diversionary Canal. 
You know these numbers better than I do. I have heard there are 
about 300,000 gallons per minute when they open that canal up 
to flush down in the Mississippi River.
    And as we look at the lake levels in both Huron and 
Michigan, the experts are telling us that those lake levels are 
lower than the other lake levels for a number of reasons. They 
do cite that. Of course, they say less precipitation and the 
snow melt, et cetera, but they are also citing--actually, a 
foremost coastal engineering firm is now theorizing that 
because of a very extensive dredging that happened in the St. 
Claire River as it meets the bottom of Lake Huron, in 
subsequent dredging and erosion, that is like a bathtub effect 
has happened there and that we are diverting I don't know how 
many millions and billions of gallons of water just over the 
Niagara because of that.
    My point is here do you have any comment on some of the 
various things that are happening that really are manmade as 
well----
    Mr. Daley.  Right.
    Ms. Miller [continuing]. That are impacting our ability to 
ship freight and all of these kinds of things on the lakes?
    Mr. Daley.  One of the issues had been a deep tunnel, which 
they have built a number of deep tunnels, in regards to 
stormwater. And one of the things, they are very seldom now 
open, the locks are open very seldom, even in difficult storms. 
One thing we are doing is water conservation.
    You have to have the green roofs. You have to have new 
technology in regards to retrofitting older buildings, what 
type of alleys you are building dealing with rainwater, 
basically not allowing the rainwater to get into the sewer 
system.
    That is one thing we have found out dealing with parks, 
open space, mandating stormwater to developments in the city, 
in the metropolitan area as well because the metropolitan area 
grows. They seek more and more water in regards to their usage.
    And, like anything else, the St. Lawrence Seaway and the 
Great Lakes, Canadian-U.S. mayors had a new conference put 
together. And we are doing best practices.
    An example, we had asked the federal government, which is 
very challenging, to tell us how much money they are spending 
on what projects, the entire federal government, in the Great 
Lakes. And, truthfully, we are still waiting. It is very, very 
challenging for them to figure this out.
    And because if they are doing something up in Ontario or 
Lake Superior or Lake Michigan, that is going to have an effect 
on all of the Great Lakes and all the tributaries. And that is 
one thing the mayors from Canada and the United States want to 
know, both from the Canadian government, U.S. government, what 
money they are spending, where they are spending it, for what 
purpose, and what long-term effect we have on the Great Lakes.
    All the tributaries are very, very important in regards to 
the Great Lakes Basin, United States. And many times we are 
putting those cities involved in the Great Lakes initiative.
    So even a city down in Kentucky or southern Illinois, along 
the Mississippi, we bring them in to the Great Lakes initiative 
in regards to, most important, conservation.
    Ms. Miller.  I appreciate that. I would like to ask a 
question of the other three of you because I think all of you 
had mentioned about various things you were doing in regard to 
your municipal fleets and what you are doing with your vehicles 
there about higher fuel efficiency.
    As you might imagine, coming from Michigan, I am very 
interested in the domestic auto industry, who is being asked to 
compete on the global marketplace. Now the federal government 
is going to be looking at higher CAFE standards, et cetera.
    Yet, at the same time, you have a government like Japan 
that is heavily invested in lithium ion batteries, not only for 
their vehicles but for all the electronics that they make. And, 
yet, we are being asked to compete, although our federal 
government does not pay for that kind of R&D, and other kinds 
of things that happen with the domestic auto industry as well. 
I mean, the Japanese government is paying for their health 
care. Yet, GM, Ford, and Chrysler are all paying for our health 
care.
    So I am just wondering. Do you have any comment on whether 
or not the federal government should be investing more to 
assist the domestic auto industry that may assist all of you in 
upgrading your municipal vehicle fleets?
    Ms. Hanrahan.  Well, I will just quickly respond that we 
were very excited when Ford came out with the Escape Hybrid 
because we have historically had a policy of purchasing 
American cars, which was in conflict with the fact that the 
hybrids were predominantly coming from the Japanese market. So 
as we see Ford and others leading now that Saturn has a hybrid 
as well, that opens a lot of opportunities for those parts of 
our municipal government that do require heavier service 
vehicles. I mean, not everything can be done from a Prius, nor 
should it be.
    We have also looked at biodiesel. Our county converted 
their fleet to biodiesel. And, actually--and I am not familiar 
with the details of it, but the fleet manager actually found 
that there were some other benefits associated with the 
temperature of the diesel or something along those lines.
    And then certainly the flex fuel vehicles, which, again, 
many American cars are flex fuel vehicles and that provides at 
least an alternative.
    Mr. Potter.  Being a former police chief, I can tell you 
that the power is important for police cars. And I think that 
we could use some assistance in how to take some of the 
biofuels and increase the ability to be able to fuel the 
American police cars so that they can keep up with the person 
they are chasing.
    But also we use in Portland the hybrid and the biodiesel 
cars as staff cars because most police cars aren't really 
patrol cars. They are really staff and support cars.
    Mr. Daley.  And in Chicago, we have one of the oldest Ford 
plants, which they retrofitted a number of years ago. They 
recently built a Ford supplier plant that hires a couple of 
thousand people. They built an environmental park. We are very 
conscious of how important the industry is to my city or to the 
Midwest is extremely important.
    At the same time, they have been working very closely with 
us on fuel efficiency and the purchase of cars and all of that. 
So that we are cognizant. At the same time, I believe the 
federal government should assist the U.S. automobile industry 
in regards to new technology and assist them as quickly as 
possible.
    Ms. Miller.  Thank you, Mr. Chairman.
    The Chairman.  The gentlelady's time has expired. The Chair 
recognizes the gentleman from Kansas City, Mr. Cleaver.
    Mr. Cleaver.  Thank you, Mr. Chairman.
    My city is a city of 322 square miles, which is huge. You 
can put St. Louis inside our city limits three times, to give 
you an example of how large it is. We have one service station 
that provides E85. And the only reason we have that is because 
during my time as mayor, President Bill Clinton ordered the GSA 
to convert its fleet to flex fuel vehicles.
    We have now in 2007 11 million flex fuel vehicles in the 
United States. We have 170,000 service stations in the United 
States, but only 1,200 of them provide E85 or flex fuel. And so 
that is a discouraging factor, I think, in people getting the 
flex fuel vehicles.
    Is there something that we can do to assist you, the cities 
in getting more flex fuel service stations in order to, of 
course, increase the number of automobiles with alternative 
fuels that are riding up and down your streets?
    Mr. Potter.  Well, if I could address that? I think this 
whole issue about how we begin to increase more sustainable 
practices requires us to consider that we are in a capitalist 
society that creates supply and demand. And our job, I believe, 
in government is to create the demand.
    In September in Portland, it will go into effect that all 
gas stations in the City of Portland will have to carry 
biofuels in addition to petroleum-based fuels. So that is our 
effort to try to create that.
    What is equally as important is that we are using the 
farmers in eastern Oregon to help grow the grains that will 
eventually become the biofuel. So we keep our money in Oregon, 
instead of sending it off to the OPEC nations.
    Ms. Hanrahan.  And I will just follow up on that because I 
was about to say exactly the same thing. One of our U.S. 
senators, Senator Martinez, who is, of course, also a former 
mayor, held a summit in Gainesville about the whole issue of 
biomass and how we can do farm-to-fuel types of projects.
    And when I walk into a room and I see the agricultural 
industry and the environmental communities and even oil 
companies all sort of singing off the same song sheet, I say, 
``Wow. Here is an opportunity.''
    As I mentioned, Florida is a huge agricultural state. Our 
own area is a huge forestry area. I don't know the specific 
answer to your question, but I think it clearly represents an 
incredible technological opportunity for this nation and for 
those states particularly that do have strong farm interests.
    Mr. Daley.  Of course, Illinois is an agricultural state, 
very important. Like anything else, you are sitting with the 
agonists here in the business community, with government in the 
purchase power example of suburban and larger cities or State 
of Illinois in the purchase of vehicles, which are better fuel 
management or greener fuel. And that is what we are really 
looking for. And everybody is striving for that.
    It is amazing across the partisan lines. It is both 
suburban areas and the cities and the state working together in 
regards to their fleets.
    Mr. Cleaver.  This won't surprise either of you. I have 
been in contact over the last couple of months with Tom Cochran 
with regard to issues surrounding cities. We have a situation 
where every six years we have this transportation bill. And the 
dollars continue to pile higher with regards to transportation. 
But we are looking at the same time at a reduction of the 
dollars that are pumped into UMTA, the Urban Mass Transit 
Administration, which at one point, in fact, when Portland got 
its system off the ground, St. Louis, Dallas, Atlanta, there 
were large grants from UMTA.
    I support--it is going to be a surprise to you--a block 
grant, but I am wondering whether or not you think that now is 
the time for some kind of transition from the Herculean amount 
of dollars we are pumping into the Department of Transportation 
to maybe put more money into UMTA or create some kind of a 
block grant program through transportation dollars to help the 
cities, particularly in light of the fact that the federal 
government is still denying the science, you know, that global 
warming is not real.
    So in lieu of the federal government, what area do you 
believe that a block grant would be most productive, coming out 
of transportation, maybe UMTA, or maybe even, you know, another 
kind of block grant through HUD?
    Mr. Potter.  I think the most effective use is to--if we 
are going to get rid of the greenhouse gases, we are going to 
have to go to one of the major contributors' vehicles. I think 
if we can begin to change from petroleum-based to biofuels, 
that will be a huge step, not only in terms of beginning to 
clean up the atmosphere but creating an entirely different 
economy based here in the United States, rather than overseas.
    Mr. Daley.  One thing I found out, it seemed like 
businesses need better public transportation, whether in the 
city or suburban collar counties. And one thing we are 
listening, business support in regards to a system that needs 
funding from the federal government, that can be clean, safe, 
on time, and friendly. And that is an alternative. Really, it 
is an environmental movement.
    It has never been looked at that way. It has always been 
``Okay. We have the highway system. There are lobbyists'' 
versus public transportation, usually mayors or in some way in 
regards to needed public transportation.
    But I think it is getting bigger than that. It is necessary 
for businesses to exist in many communities if they don't have 
public transportation.
    And that is where I think the debate will be in the future, 
especially in the collar counties and the growing areas, the 
metropolitan areas. They can't move on weekends and at night 
and during the day. It is overcrowded with cars. So there is 
where the debate has to come, and I think it is slowly moving 
in that direction.
    Mr. Cleaver.  Thank you.
    Ms. Hanrahan.  And just a very brief comment. We very much 
admire the light rail systems we see in cities like Portland 
and Salt Lake. Most of America's cities are small cities. And 
light rail is probably not an appropriate solution.
    But certainly we have benefitted by the support for our 
transit system, which, as I said, has increased from a million 
and a half passengers a year in '96 to over 9 million today. 
And we have done that through partnerships, particularly with 
our largest employers and the University of Florida, that they 
provide fare-free passes. And that has really dramatically 
changed the way that those riders use the system.
    The Chairman.  The gentleman's time has expired. The Chair 
recognizes the gentlelady from South Dakota, Ms. Herseth 
Sandlin.
    Ms. Herseth Sandlin.  Thank you, Mr. Chairman. And building 
on the questions of Mrs. Miller and Mr. Cleaver, of course, it 
is music to my ears representing South Dakota and where we are 
trying to get our biofuels. Of course, we would really like to 
get our wind generating electricity to get to Chicago, Mayor 
Daley. So perhaps we can visit more about that.
    Going to the municipal fleet again and the number of E85 
pumps that are available across the country in different 
regions and different cities, could you talk perhaps--I think, 
Mayor Potter, did you say that there is a requirement that just 
passed in Portland that every service station within the city 
limits has to carry a biofuel? And is that biodiesel? Is that 
E85? What blend are we talking about there?
    Mr. Potter.  Yes. In September, it will be a requirement 
that they carry biofuels. And it will be probably the B85 or 
the B15. We are very interested in increasing the percentage of 
biofuels mixed in diesel. And, of course, that is a technology 
issue.
    And that is one of the things that I think that there, 
again, the federal government can help with, is how do we 
provide the kind of technology that can use this because, as 
you know, in the wintertime, biofuels tend to thicken. And so 
they use the diesel to thin it with.
    And so by using the technology--and I have seen some of the 
technology in terms of having the biofuel container heated so 
that you always keep the fluid warm and, thus, not as viscose 
as would be otherwise.
    Ms. Herseth Sandlin.  So the requirement in September is 
for diesel, a blend of diesel. It is not necessarily for an 
ethanol blend of 85 percent. That is one of the areas that we 
have focused on here in Washington, this whole chicken and the 
egg issue.
    And I think that Detroit has actually made a significant 
commitment in ramping up its manufacture of flex fuel vehicles. 
The problem is as that demand increases, we still have service 
stations that are talking about how cost-prohibitive it can be, 
especially in urban areas, because you do need another tank.
    And so when they have got a demand of premium, regular 
unleaded, I am just wondering if any of you have pursued or 
talked with your convenience store owners about what they would 
like to see either at the municipal level, any incentives you 
have discussed as Washington undertakes a discussion about 
incentives that we can offer to service station owners in 
addition to perhaps requirements at some point, especially for 
those that are licensed by or, I should say, have leases with 
some of the larger oil companies.
    Mr. Daley.  State law regularly requires them to use 
ethanol as a mix, ten percent mix, in the wintertime. So there 
are certain months that it is required to be in all gases in 
Oregon. So we do use ethanol. It's the other biofuels that we 
have not really capitalized on.
    The State of Illinois is working--of course, ethanol is 
really important for us as well in Illinois. Presently the 
state has not mandated. They are presently working with 
operators, whether in the city or throughout the state, in 
regards to sitting down with them and saying, ``What is cost-
effective?''; how they can put it in, especially if they are 
independent operators. And more so in the city they are not. 
They are owned by major companies. But in the suburbs and down 
state, they are mostly independent operators.
    And that is one issue that they had come up with, the cost 
factor of the alternative energies in these gas stations.
    Ms. Hanrahan.  I was just going to say the best luck we 
have had is when we see a rebuild, a complete rebuild of a 
station. And then they are more able to be flexible in that.
    But one other just interesting note is that--and this may 
be just the sort of thing you see in college towns, but there 
is actually a biodiesel co-op that has come up. And people are 
bringing it in. And you see vehicles that have a sticker on 
them that says, ``This vehicle run by biodiesel.''
    I think this is one of the areas that the people are 
actually ahead of the government.
    Ms. Herseth Sandlin.  Thank you. One last question. Your 
public transportation vehicles, I think, Mayor Daley, in 
Chicago, you have got hydrogen-fueled buses. Is that the same 
in terms of either diesel or, again, an ethanol blend? Is that 
state law that even the public transportation vehicles then 
would--well, I guess you would have to fill up with an E10 
blend if that is required during the colder months. But can you 
talk about your public transportation systems and the use of 
any renewable energy sources?
    Mr. Potter.  Well, the public transportation in Portland, 
TriMet, also uses hybrid buses. And so there is a percentage of 
buses, and I don't know what percentage. But there is a 
significant percentage of buses that are actually hybrid.
    Mr. Daley.  In the Chicago Transit Authority, that is what 
they are looking for in regards to getting off the diesel, in 
regards to hybrid buses.
    Ms. Hanrahan.  And I will just share we actually purchased 
one of the Ballard buses. And, unfortunately,--this sort of 
speaks to some of the challenges that we are facing--it didn't 
work well. And then the company had problems and so on.
    I will say that one of the challenges that we have with our 
transit system is, of course, the federal support is primarily 
for the rolling stock, for the capital. And so we end up, we 
are running it on a shoestring, to be honest, relative to the 
size of the passenger ship.
    So we haven't done as much as we would like to do in that 
area, I think primarily on a cost basis. So if we could look at 
more funding for operating versus just capital, I think that 
would be an incentive.
    Mr. Daley.  I think you have to be careful what plan you 
decide to do because you get a company and they start building 
them and, all of a sudden, in three years they are not there, 
they are not in existence. So I think many cities are following 
by example what other cities are doing, not only the United 
States but throughout the world, especially in Europe.
    Ms. Herseth Sandlin.  Thank you. Thank you, Mr. Chairman. I 
yield back.
    The Chairman.  The gentlelady's time has expired. The Chair 
recognizes the gentleman from Washington State, Mr. Inslee.
    Mr. Inslee.  Thank you. Thank you. Thank you. Thank you. 
This is a real delight for me.
    Mayor Potter, Mayor Daley, you will be pleased to know 
there is a book coming out this fall about clean energy. It is 
called ``Apollo's Fire.'' And your two cities are prominently 
featured in it because of your great leadership. And I didn't 
know about the great work of Mayor Hanrahan. I will tell 
everybody about it. We appreciate it, appreciate you coming 
here.
    Mayor Potter, I remember--I was writing this book--talking 
to a fellow who was working in a computer company in Portland. 
He was a young entrepreneur. He had looked at various cities, 
where to go to start his company. And he focused on Portland.
    I asked him why. He said, ``Because they get it when it 
comes to the environment, having a great business environment 
with good public transportation, great amenities'' because he 
said it became a focus of his ability to draw talent, 
intellectual talent, into his company. And he looked at your 
environmental policy as actually a tremendous economic driver.
    And I just wonder if you want to comment. Is that a common 
experience or just the dreams of one software fellow?
    Mr. Potter. I hope that guy was with a company called Free 
Geek that takes old computers and reconditions them and gives 
them to low-income families and schools. Maybe that is his 
program. I am not sure.
    Mr. Inslee. I think it was a different one. You have got at 
least two good companies there.
    [Laughter.]
    Mr. Potter. The fact is that Portland is really fortunate. 
We are one of several cities in the United States where that 
18- to 35-year-old demographic is actually growing. Nationally 
that age grouping is dropping.
    So there are more young people coming to Portland. Part of 
it is because of those very kind of innovative low-threshold 
kinds of opportunities. That is, you know, you can come and try 
things out that people in other cities may not give you that 
opportunity. So we are really proud of that.
    The other one is our tolerance, which I think also fits 
into that, that we accept people and we accept their ideas. We 
understand that with diversity brings new ideas and new ways of 
thinking.
    Mr. Inslee. I appreciate that. I want to ask you about 
building efficiency. When we look at this, I think a good way 
to think of efficiency and conservation is the first fuel. And 
it is usually the cheapest way to get inexpensive energy is not 
to waste it.
    I want to ask you about building codes. The American 
Society of Architects believes that we can have essentially the 
building residential building and commercial that is 60 percent 
less energy-intensive than the buildings we are building today 
by the year 2010 and 80 percent less energy-intensive by 2020.
    Now, those are really ambitious numbers. They kind of are 
stunning to me. But these are, you know, the architects telling 
us we can do this.
    One of the things we are thinking about is a way to work 
with the cities on building codes, both incentives and perhaps 
some mandates to move forward on building code requirements on 
energy intensity. And I just wonder if you can tell us about 
what your experience has been. Is that something we should 
think about? If so, how?
    Mr. Daley. Well, as a mayor, one thing I think all mayors 
are always against is mandating from the federal government, 
``Do as I say,'' not ``Do as I do.'' And so if you mandate it, 
make sure that every federal building, every federal contract 
is mandated. Mandates are only one way. It goes downhill. We 
are in the bottom. And so make sure that the federal government 
and all of your contracts are mandated first and foremost and 
see how it works.
    We don't want to be your guinea pigs for your philosophy 
and for your programs. We would rather see the federal 
government work it first because what we have done, a lot of us 
have done, the environmental changes. And some of it works, 
some of it doesn't. And we have to explain to our taxpayers 
what happens.
    When you mandate it, then you move us in one direction. And 
many times we lack the creativity, where if we had the 
flexibility, the funding, the technology for it, that gives us 
a little opportunity to be much more creative on a local level.
    Ms. Hanrahan. And I will just follow up on that. And the 
discussion about South Dakota actually made me think. You know, 
there is probably very little similar between South Dakota and 
Florida in terms of climate, in terms of population density, 
and probably in terms of building style.
    That having been said, the only places that you are really 
seeing dramatic or substantial, I want to say, decreases in per 
capita energy use are those places that have much stronger 
building codes, most notably the State of California.
    There are some municipalities being visited, like Austin, 
Texas and Burlington, Vermont and perhaps these other fine 
cities as well. I think we clearly have to work with our 
building trades and with groups like the AIA. The American 
Institute of Architects have said that 50 percent of all 
greenhouse gases are coming from buildings. So we have to 
address it.
    And, again, I think that there is a market demand for it, 
and we are seeing that.
    Mr. Inslee. Thank you.
    The Chairman. Great. The gentleman's time has expired. The 
Chair recognizes the gentleman from the State of New York, Mr. 
Hall.
    Mr. Hall. Thank you, Mr. Chairman. And thank you all, our 
illustrious panel.
    Yesterday morning I was honored to address the Westchester, 
New York County Task Force on Global Warming and Energy Policy. 
In Westchester County, they have an entire fleet of hybrid 
buses that they are very happy with. So if you would like any 
information on that, I would be happy to get it for you.
    Mayor Daley, I understand that you have a fleet of Escape 
Hybrids that the city has purchased that, at least according to 
one internet site I found, are being retrofitted to be plug-in 
hybrids.
    Mr. Daley. Yes.
    Mr. Hall. Can you tell us about that, how the process is 
going?
    Mr. Daley. Well, again, it is experimental. When you do 
these things, you can't move your whole fleet to one 
alternative source. If you do, it could be a mistake. And so we 
are trying to, of course, review it and test it and find out 
how well it does.
    Mr. Hall. I have myself, made the same decision that Mayor 
Hanrahan made, which was to buy an American hybrid, although I 
could have gotten better mileage by going with a Japanese one. 
But I want to support--this was my personal investment--the 
evolving auto industry in the United States as they try to move 
into energy efficiency more aggressively.
    So my Mercury hybrid, which is a Ford product, I would like 
to be able to follow on your footsteps. If you have success 
with it, I may be sending my car to Chicago to be turned into a 
plug-in.
    As you may have heard, Mayor Bloomberg in New York City has 
come forward with a very aggressive package for sustainable New 
York. It has a lot of interesting components. One of them, 
which is the more controversial element of his plan, is 
congestion pricing, charging those who drive in certain areas 
of the city a fee to reduce traffic and cut tailpipe emissions 
and to use that to fund capital improvements for mass transit.
    At the risk of asking you to pass judgment on another 
mayor's proposal, what do you think of this type of 
arrangement? And are you considering any similar approach?
    Mr. Daley. Well, I think that London has had it, a certain 
segment of London has had it.
    Like anything else, what we need, instead of going on that, 
we need funding the mass transit to make sure it is clean, 
safe, on time, and friendly 24 hours 7 days a week. And if you 
do that, then basically you don't have to do the other issue, 
dealing with eliminating cars out of downtown areas, because we 
have huge parking fees because, of course, parking fees 
generate money for local government.
    And, like anything else, it is extremely important. You 
have a huge business community there. And I focus. If other 
cities want to try that, fine. They should be able to try that. 
London is doing part of it. New York wants to do that. But let 
them try it and figure out how well they do.
    But, again, we can't lose sight of investments in capital 
and operating of transit. And the cost is tremendous when we 
try to build a rail system in a city or suburban area. And that 
is one of the issues.
    Mr. Hall. If I could just jump in and take it from there? I 
am sorry. I only have five minutes. Perhaps the other mayors 
would expound from there. In terms of improving and augmenting 
mass transit, which you all have done, what types of 
interactions did you have with surrounding localities, suburb, 
exurb, and communities? And to what extent is that type of 
coordination vital to a successful expansion of mass transit?
    Mr. Potter. Well, I believe that we are becoming so 
intertwined economically, socially, and otherwise with our 
surrounding communities.
    I don't really think it is just Portland in the suburbs in 
terms of what works and how we work together. So I meet 
regularly with the other mayors to discuss how we can create 
synergy because our transportation systems run through all of 
those communities. And so when we build light rail in Portland, 
it goes to the suburbs. And, conversely, when folks move to the 
suburbs, they come into the city for their entertainment and 
dining out experiences. So that interrelationship to us is 
really important.
    For me, in terms of how we begin to address that problem, 
we have got to give people more choices, and to me, choices 
that are alternative to the vehicle.
    So we have talked about public transportation, but one of 
the areas also is the use of pedestrian and bicycles. There is 
a movement around the country in terms of walkable cities and 
walkable communities. I think that is really important but also 
because Portland is really committed to bicycling.
    And we are seeing such a tremendous increase in the use of 
bikes. We can actually get people out of their vehicles and 
onto their feet or on a bicycle and that the net effect is much 
better, not only for our environment. We have a host of 
industries in the Portland area that deal specifically with 
sports and bicycling. We have some of the major manufacturers 
of bikes, plus sports gear.
    Mr. Hall. And so a healthier population, too.
    Mr. Potter. Well, we are working on that part.
    Mr. Hall. Mayor Hanrahan, would you like to?
    Ms. Hanrahan. We have some small, very small, towns around 
us, in the 5,000 to 7,000 range and some of them particularly 
with large employers. We have a Wal-Mart distribution center in 
one of our adjacent cities that has established a co-funding 
for a route that comes through Gainesville and to some of our 
more disadvantaged areas and takes people to jobs.
    Again, they are not as happy as they would like to be with 
the ridership, but park and rides and those types of things are 
certainly things that we are working on with our adjacent 
municipalities.
    Mr. Hall. Thank you. Thank you, Mr. Chairman.
    The Chairman. The gentleman's time has expired. The Chair 
will recognize himself.
    Let me ask you, Mr. Daley. The Center for Green Technology 
that you have in Chicago, could you explain that to us, why you 
formed it?
    Mr. Daley. Well, basically----
    The Chairman. How successful is it? And, can other cities 
adopt it?
    Mr. Daley. Yes, it is very successful with regards to 
educating the public in a green building and educating 
especially architects, developers, and engineers, and 
contractors and subcontractors in regards to green technology 
and holding seminars for each one of the professionals and also 
for the community in regards to the building code. And that is 
one thing you have to sit down, both with management and with 
unions sitting down and retrofitting the building code in 
regards to green technology.
    One of the things we found out with a number of sessions is 
that we have a green permit system. You get your permits much 
quicker than the other way. And that has helped us tremendously 
in business, residential, all types of developments in regards 
to the city of Chicago.
    The Chairman. So what would you have to do to qualify for a 
green permit?
    Mr. Daley. Well, you have to follow the green technology 
code. And then, in turn, you have to commit so much to energy, 
so much to water, and so much to the type of construction 
material, everything else.
     Once you identify that, you go with your architect or 
engineer. Then we certify that. And it moves very quickly. You 
will get your permit within weeks.
    The Chairman. As opposed to?
    Mr. Daley. Months, months and months.
    [Laughter.]
    The Chairman. That is good government at its best.
    Mr. Daley. Much better, much more effective.
    The Chairman. Now, can you talk to us about green alleys?
    Mr. Daley. That is one thing we have done in regards to 
water. Usually the alleys are mostly paved with concrete. And, 
in turn, what happens is it has to go in the sewer system. And 
one thing we are using is the system where they use in the 
Netherlands and other places, other cities, is where we are 
holding the water and letting the water slowly settle into the 
ground.
    And because we have a combined waster and sewer system, you 
have to divert water out of the combined water and sewer 
system. You have to move the water away from that. Whether it 
is the alleys, whether it is the streets, or whether it is the 
rain barrels, whether it is the stormwater management system 
for any development, they have to apply for it. And you have to 
do that.
    I really believe water would be--more like the oil crisis 
we are in today, we will be in a water crisis very shortly.
    The Chairman. So Speaker Pelosi in taking over leadership 
of the House of Representatives in January created only one 
select committee for her first two years, this Select Committee 
on Energy Independence and Global Warming. And she named 
Congressman Cleaver as the former mayor of Kansas City to the 
panel because she wanted to focus on the cities. So we are 
going to be deliberating a block grant program for the cities. 
And you mentioned it in your opening testimony.
    Could you tell us? Make the case for why the Congress 
should spend billions of dollars to help the cities in their 
planning and execution of the greening of those communities?
    Mr. Daley.  Well, if you listen to it, it is not only 
mayors, myself, but it is the Metropolitan Mayors Caucus, which 
comprises about 75 percent of the population in Illinois, are 
firmly behind the block grant concept.
    It deals with creativity. It deals with getting us money so 
that we know what works. And we are going to follow other 
mayors. We are going to talk to mayors in the metropolitan 
area, in my area. We are going to talk to other mayors 
throughout the country, what works and doesn't work, so this 
block grant can come to us that we can show by example, we can 
do more by example, and then allow the private sector to follow 
in regards to the environmental changes that we want to make in 
cities. And I think it is important that we lead by example.
    I started building green roofs. The city did it first. I 
didn't mandate the private sector to do it. It would just be 
another mandate. And the private sector, ``Why are you 
mandating it? Why don't you do it if you believe in it?''
    And so I think the mayors here, not only here at the panel 
but throughout the country, lead by example. And that would 
really move us into this whole environmental change we can 
adapt so quickly if we get the flexibility of a block grant.
    You need flexibility. If you don't have the flexibility, 
you need flexibility with accountability, which is really 
important.
    The Chairman.  Now I would like to follow up on the point 
that Congressman Inslee was making just in terms of the image 
of being a green city and how it helps you. Can you elaborate 
on that?
    Mr. Daley.  Well, here, the City of Chicago, industrial 
base, we have the stockyards. We have had the large tanning 
factories. We have had a river that was destroyed many, many 
years ago. We have had huge industrial bases. And we are 
basically retrofitting them.
    As Mayor Potter pointed out in his city, we have a lot of 
green technology businesses coming in dealing with engineers, 
contractors, suppliers, manufacturers of green technology.
    We have a whole green technology section of this city that 
young people are moving their business in. They start out with 
three or four or five people. And, all of a sudden, you turn 
around, they have got 25-40 people working in the green 
technology field.
    And also we take money from the tax and financing districts 
and put money into these companies so they can purchase old 
manufacturing property or buildings and then retrofit them for 
them.
    From our viewpoint, it makes economic sense. We are making 
money. We are saving jobs in companies. We are building more 
jobs in communities. At the same time, environmentally people 
get it. And it makes economic and financial sense for the City 
of Chicago investing in green technology.
    The Chairman.  And, again, there is an argument that is 
constantly made that there is a tension between the economy and 
jobs and going green, that you have to pay a huge price for 
that. Could you deal with that, Mr. Mayor?
    Mr. Potter.  I think it is the next wave. And I believe 
that, as global warming becomes more and more of an issue, 
people are going to be looking for alternatives to what we are 
currently doing.
    And so one of the things that I think that the federal 
government can be very useful and good at would be providing 
more information on what works and doesn't work around our 
country.
    I have with me a floppy disk from 1993. And it is a 360-
kilobyte floppy. This contains all the information that the 
City of Portland had in 1993 on global warming. And now this 
could hardly hold a conversation about what occurred this 
afternoon in this room.
    So I think that the government--and I have seen it when I 
was in police work--can be a real conduit for providing 
information out into communities about what works, doesn't 
work, and encouraging change through the interaction between 
communities.
    The Chairman.  This has been a great hearing. I know the 
members really appreciate it. It is at the top of the list of 
the priorities that Speaker Pelosi has to put the cities front 
and center, to help the cities, for us to actually learn from 
their example so that we implement nationally what you at the 
city level have been doing. And if she said it once, she said 
it 100 times to us as a Committee and that she wants us to 
focus on this.
    What I would like to ask each of you to do is just give us 
your one-minute summation of what it is that you want us to 
know about the cities and their work in greening our 
communities so we can remember that as we go through this very, 
very complex but I think ultimately achievable energy bill and 
cap and trade climate change legislation that we will be 
considering this year. We will begin with you, Mayor Hanrahan.
    Ms. Hanrahan.  Certainly. And I will just follow up where 
we have left off. I think this represents perhaps one of the 
most rich technological and economic opportunities that we have 
faced in a long time in this nation.
    Speaking as someone who is an engineer and all but one of 
my siblings are engineers, my father is a chemist, I believe we 
have the capability in this nation to do this. That is what 
distinguishes the United States from the rest of the world. And 
that is what distinguishes the cities you are hearing from 
today. We are innovation-based cities. We are innovation-based 
economies. And that is the promise. This is something that 
draws in young people.
    As elected officials, we all know the degree to which young 
people are not necessarily engaged in much of our civic 
discourse today. And in a situation where the most talented 
minds can live anywhere, they want to live in places where they 
have a high quality of life.
    Gainesville was number one in Frommer's cities rated and 
ranked this year. We are very high in Richard Florida's 
Creative Cities. And it is because of these types of efforts. 
The idea that this is bad for our economy I think is really, 
frankly, laughable.
    I want to thank you again for the opportunity. And I 
congratulate you on your work.
    The Chairman.  Thank you.
    Mayor Potter.
    Mr. Potter.  You know, the fact that people are still 
saying that in order to be green, we have to pay more, I think 
it is very obvious not just by today's session but around this 
country. Cities are the laboratories for change. And we are 
seeing change occur on a rapid scale.
    I think that if the federal government were to really get 
behind a significant shift to sustainability, it would leverage 
the effect of what local communities could do by many factors.
    So I am a strong supporter that we need to work in tandem. 
We need to leverage the understanding. And we need to build on 
that and provide other communities the opportunities and the 
incentives to make their communities more sustainable.
    The Chairman.  Mayor Daley.
    Mr. Daley.  You could bring mayors and county officials, 
Democrats, Republicans, independents around the country. And 
they would really make a presentation about their creativity 
and what they have accomplished.
    I got a letter from Mayor Gene Marks from Northbrook, 
Northwest suburban area. And he leads the way in the 
environmental movement, I would say, affluent community. But 
changes are taking place. And I think the federal government 
can learn a lot from thousands of your mayors and county 
officials all over the country, the changes they have done. And 
what we need is basically leadership from the federal 
government and assistance in a block grant with technology and 
a willingness to become a true partner.
    The Chairman.  Thank you, Mr. Mayor. Thank each of you. We 
can't tell you how honored we are to have you with us today and 
how much it is going to help to guide us over these next couple 
of months in listening to you and trying to make sure it is 
built into federal law before the end of this year. Thank you 
all very much.
    With that, this hearing is adjourned.
    [Whereupon, at 3:54 p.m., the foregoing matter was 
concluded.]

[GRAPHIC] [TIFF OMITTED] T8063A.021

[GRAPHIC] [TIFF OMITTED] T8063A.022

[GRAPHIC] [TIFF OMITTED] T8063A.023

[GRAPHIC] [TIFF OMITTED] T8063A.024

[GRAPHIC] [TIFF OMITTED] T8063A.025

[GRAPHIC] [TIFF OMITTED] T8063A.026

[GRAPHIC] [TIFF OMITTED] T8063A.027

[GRAPHIC] [TIFF OMITTED] T8063A.028

[GRAPHIC] [TIFF OMITTED] T8063A.029

[GRAPHIC] [TIFF OMITTED] T8063A.030

[GRAPHIC] [TIFF OMITTED] T8063A.031

[GRAPHIC] [TIFF OMITTED] T8063A.032

[GRAPHIC] [TIFF OMITTED] T8063A.033

[GRAPHIC] [TIFF OMITTED] T8063A.034

[GRAPHIC] [TIFF OMITTED] T8063A.035

[GRAPHIC] [TIFF OMITTED] T8063A.036

[GRAPHIC] [TIFF OMITTED] T8063A.037

[GRAPHIC] [TIFF OMITTED] T8063A.038


</pre></body></html>
